No.
IN THE
SUPREME COURT OF THE UNITED STATES

GEOFFREY GRAHAM - PETITIONER Pro Se
vs.
GRADY PERRY, et al. - RESPONDENTS
PROOF OF SERVICE

1/ Geoffrey Graham, do swear or declare that on this date, September 16, 2020, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to
the above proceeding or that party's counsel and on every other person required to be served,
by depositing an envelope containing the above documents in the United States Mail properly
addressed to each of the following with first class postage prepaid for delivery within three
calendar days:

Clerk, Supreme Court of the United States, 1 First Street NE, Washington DC 20543-0001
Clerk, Supreme Court of Georgia, 244 Washington St Rm. 572, Atlanta GA 30334
State of GA Department of Law, 40 Capitol Sq. SW, Atlanta GA 30334-1300
I declare under penalty of perjury that the foregoing is true and correct
Executed on

.2QJ* .

(Sign

•ffrey Graham, Pro Se

CERTIFICATE OF SERVICE

This is to certify that I have this day served a true and correct copy of the document
listed below upon the parties listed below by depositing a copy of the same in the United States
mail in a properly addressed envelope with adequate postage affixed thereon, to the below
addressees:

Clerk, Supreme Court of the United States
1 First Street NE
Washington DC 20543-0001
Clerk, Supreme Court of Georgia
244 Washington St. Rm. 572
Atlanta GA 30334
State of GA Department of Law
40 Capitol Sq. SW
Atlanta GA 30334-1300

Document Included:
Petition for Writ of Certiorari
with 10 Appendices and motion for IFP.

Respectfully Submitted this 24th day of August, 2020.

Signed

/t/.M
,
/

Geoffrey Graham, Pro-Se
GDC # 1000694046
835 Eli Road
Bon Aqua TN 37025-5019

